                                            April 25, 2003




MEMORANDUM TO:               Chairman Diaz



FROM:                        Hubert T. Bell
                             Inspector General      (Original signed by)


SUBJECT:                     NRC ENFORCEMENT OF REGULATORY REQUIREMENTS
                             AND COMMITMENTS AT INDIAN POINT, UNIT 2
                             (CASE NO. 01-01S)


Attached is an Office of the Inspector General (OIG), U.S. Nuclear Regulatory Commission
(NRC) Event Inquiry that addresses the NRC’s oversight of operations at the Indian Point,
Unit 2 nuclear power plant in Buchanan, New York.

Please call me if you have any questions regarding this Event Inquiry. This report is furnished
for whatever action you deem appropriate. Please notify this office within 90 days of what
action, if any, you take based on the results of the Event Inquiry.

Attachment: As stated

cc w/attachment:
Commissioner Dicus
Commissioner McGaffigan
Commissioner Merrifield
W. Travers, EDO
    OFFICE OF THE INSPECTOR GENERAL
              EVENT INQUIRY




                     NRC ENFORCEMENT OF REGULATORY
                      REQUIREMENTS AND COMMITMENTS
                           AT INDIAN POINT, UNIT 2

                              Case No. 01-01S




_____(Original signed by)_ ___           __(Original signed by)    _
Veronica O. Bucci, Special Agent         George A. Mulley, Jr.,
                                         Senior Level Assistant for
                                           Investigative Operations


                        ____(Original signed by)_____
                               Brian C. Dwyer
                             Assistant Inspector
                          General for Investigations
NRC ENFORCEMENT OF REGULATORY
 REQUIREMENTS AND COMMITMENTS
      AT INDIAN POINT, UNIT 2



   Case No. 01-01S   April 25, 2003
                                                   TABLE OF CONTENTS


                                                                                                                                     Page

BASIS AND SCOPE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2


BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3


DETAILS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5


          I.         NRC OVERSIGHT OF IP2'S PROGRESS TOWARD FULFILLING
                     TWO 1997 DESIGN BASES COMMITMENTS . . . . . . . . . . . . . . . . . . . . . . . . . 5

                                OIG FINDING . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8

          II.        NRC’S RESPONSE TO REPORTED DISCREPANCIES BETWEEN RPS
                     DESIGN DRAWINGS AND AS-BUILT CONFIGURATION . . . . . . . . . . . . . . . . 9

                                OIG FINDING . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14

          III.       NRC REGULATORY OVERSIGHT OF IP2'S CAP: 1995 – 2001 . . . . . . . . . . 16

                                OIG FINDING . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20

          IV.        NRC’S UTILIZATION OF THE SMM PROCESS TO HEIGHTEN
                     ATTENTION AT IP2 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22

                                OIG FINDING . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25

APPENDIX A: SUMMARY OF IP2 RPS CONDITION REPORTS . . . . . . . . . . . . . . . . . . . . . 27

APPENDIX B: CHRONOLOGY OF SIGNIFICANT INSPECTIONS AND OVERSIGHT
            AT IP2, 1995 - 2003 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29

APPENDIX C: SUMMARY OF ESCALATED ENFORCEMENT ACTION
            FROM 1995-2000 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 36
                                     BASIS AND SCOPE


The Office of the Inspector General (OIG) initiated this inquiry in response to a Congressional
request that OIG examine issues concerning U.S. Nuclear Regulatory Commission (NRC)
oversight of operations at the Indian Point 2 (IP2) nuclear power facility in Buchanan, New York.
The request referred specifically to “internal Con Ed/Indian Point 2 condition reports” made
public in a January 2001 petition review board meeting that “may include information which
indicates that the plant operator may be in violation of a commitment made back in 1997
regarding design bases requirements.”

The Congressional request also focused on issues raised by an engineering consultant hired by
the licensee who had recently resigned his position due to a differing professional opinion
regarding the plant’s Reactor Protection System. The request noted that one of the more
lengthy condition reports cited discrepancies between design drawings and the as-built
configuration of the Reactor Protection System.

Based on the above concerns, OIG initiated an Event Inquiry to examine:

       I. NRC’s oversight of IP2's progress toward fulfilling two design bases commitments
       made to the NRC in 1997. These commitments were made in response to NRC’s 1996
       request for information concerning plant programs and processes for controlling and
       maintaining operations within the facility’s design bases.

       II. NRC’s response to the specific concerns raised by an IP2 engineering consultant
       pertaining to discrepancies between design drawings and the as-built configuration of
       the Reactor Protection System.

       III. NRC’s oversight of IP2's corrective action program between 1995 and 2001.

       IV. NRC’s utilization of its Senior Management Meeting process to heighten attention to
       IP2.




                                               2
                                                  BACKGROUND


NRC’s Regulation of Power Plants — Overview of Terms Used in This Report

Nuclear power plants are required to adhere to U.S. Nuclear Regulatory Commission (NRC)
regulations to ensure their safe operation. These regulations include requirements that power
plants operate in accordance with their current license, which includes (1) the plant’s technical
specifications, (2) license conditions, (3) licensee commitments made in response to NRC
Generic Letters and Bulletins, and (4) the Final Safety Analysis Report (FSAR).1 Design bases
information identifies the specific functions to be performed by a power plant’s structures,
systems, and components as well as associated design parameters.

In addition, plants are required to have a corrective action program (CAP) that enables them to
identify, prioritize, and correct problems in a timely manner. Power plants manage their CAP by
maintaining a database of action items, or condition reports, which describe particular plant
conditions in need of repair or attention. Plants typically prioritize these condition reports based
on safety significance and address them accordingly.

NRC provides oversight of nuclear power plants to ensure that plants are operating safely. The
agency conducts reactor inspections to determine whether power plants are in compliance with
agency requirements. Inspections range from routine, baseline inspections2 to inspections
beyond the baseline which may focus on areas of declining plant performance. The agency
issues sanctions (i.e., enforcement actions) — such as Notices of Violation (NOV),3 fines, or
orders to modify, suspend, or revoke licenses — when plants are out of compliance. In 2000,
NRC implemented a Reactor Oversight Process (ROP), which was intended to be substantially
different from the previous oversight process and to take into account improvements in the
performance of the nuclear industry over the past 25 years and improved approaches of
inspecting and evaluating the safety performance of NRC-licensed plants. Under this process,
inspection findings are evaluated for risk significance using pre-established criteria. Plants that
fail to meet certain safety objectives, as determined by performance indicators and inspection
findings, are to receive increased inspection activity, focusing on areas of declining
performance and may be subject to enforcement action.




         1
          The FSAR is a licensing document that provides a description and safety analysis of the site, the design,
design bases and operational limits, normal and emergency operation, potential accidents, predicted consequences
of such accidents, and the means proposed to prevent or mitigate the consequences of such accidents. When the
FSAR has been updated, it is referred to as the updated FSAR, or UFSAR.
         2
            Baseline inspections are common to all nuclear power plants; NRC’s baseline inspection program is the
normal inspection program performed at all nuclear power plants. The program focuses on plant activities that are
“risk significant,” that is, those activities and systems that have a potential to trigger an accident, can mitigate the
effects of an accident, or increase the consequences of a possible accident.
         3
             An NOV formalizes a violation by identifying a requirement and how it was violated.

                                                            3
Between 1986 and 2001, NRC also used its semiannual Senior Managers Meetings (SMM)4 as
a means to increase attention to plants with persistent operational problems. During these
meetings, the agency’s senior managers reviewed certain plants experiencing declines in
performance. Participants decided whether to increase oversight of subject plants and, if so, by
what means. For example, a SMM decision might require a plant to undergo additional
inspections, or the staff could issue a “trending letter” to advise a licensee that NRC had taken
note of declining plant performance, or designate the plant as in need of heightened NRC
attention (e.g., designation as an Agency Focus Plant).

One way in which nuclear power plants fulfill NRC expectations is through regulatory
commitments. Regulatory commitments are non-binding statements made by licensees to NRC
indicating they will take specific actions, for example, to verify the accuracy of UFSAR
information, and they typically reflect the means by which licensees will accomplish the
commitment (e.g., in a certain timeframe, following a specific approach).

The Indian Point Nuclear Power Plant, Unit 2 (IP2), is one of two operating pressurized water
reactors located in Buchanan, NY, 24 miles north of New York City. IP2 began commercial
operations in August 1974. The Consolidated Edison Company of New York, Inc. (ConEd),
owned IP2 until September 6, 2001, when the plant was purchased by Entergy Nuclear
Operations, Inc. NRC’s Region I office5 provides oversight for IP2.




         4
         The Senior Management Meeting (SMM) program which required semiannual meetings of NRC senior
managers was replaced in 2001 by the Agency Action Review Meeting (AARM) program. The AARM is an annual
meeting of NRC senior managers under the Reactor Oversight Process. This meeting essentially replaces the SMM
under NRC’s previous oversight process.
         5
         NRC has four regional offices that conduct inspections of nuclear reactors within regional boundaries.
NRC’s Region I provides regulatory oversight for IP2 and other nuclear facilities within the northeast region of the
United States.

                                                           4
                                            DETAILS


I. NRC OVERSIGHT OF IP2'S PROGRESS TOWARD FULFILLING TWO 1997 DESIGN
BASES COMMITMENTS

Overview of Design Bases

Nuclear power plants are designed so that internal and external events (e.g., loss of coolant
accident, fire, earthquake) will not jeopardize plant safety or threaten the health and safety of
the public. A plant’s design bases in part describe how the plant will cope with various
accidents and emergencies. Plant structures, systems, and components (SSC) must be built in
accordance with design requirements that will enable the plant to meet its design bases and,
consequently, to withstand such accidents and emergencies. Plant operators are expected to
not make plant modifications to safety related systems without having performed NRC required
safety analyses, which are needed to prove the modification will not affect the plant’s ability to
meet its design bases requirements. Furthermore, when modifications are made, they are
supposed to be reflected in the plant’s design bases documents, which link each plant SSC to
its design bases and original design requirements. Design bases documents include such
information as industry, regulatory, and manufacturer criteria for plant systems and information
generally contained in the UFSAR specifying system functions and requirements, component
functions and requirements, interface requirements from supporting and supported systems,
applicable accident analysis assumptions related to the systems, and plant design drawings
and calculations.

NRC Requests Licensee Feedback on Design Bases Issues

NRC team inspections during 1995 and 1996 identified concerns regarding the ability of NRC
licensees to maintain and implement the design bases at certain plants. To learn more about
the scope and extent of the problems among operating nuclear power reactors, the staff
proposed that all licensees be required to provide information regarding the availability and
adequacy of design bases information. To that end, on October 9, 1996, NRC issued a letter to
each NRC reactor licensee in accordance with Title 10, Part 50, Section 54(f), Code of Federal
Regulations (10 CFR 50.54(f)) requesting that each licensee submit under oath a written
response within 120 days describing and discussing the effectiveness of its programs and
processes for controlling and maintaining operations within the facility’s design bases. The
stated purpose of the letter was “to require information that will provide the U.S. Nuclear
Regulatory Commission (NRC) added confidence and assurance that [licensee plants] are
operated and maintained within the design bases and any deviations are reconciled in a timely
manner.”

Specifically, NRC found it problematic that some licensees had failed to (1) appropriately
maintain or adhere to plant design bases, (2) appropriately maintain or adhere to the plant
licensing basis, (3) comply with the terms and conditions of licenses and NRC regulations, and
(4) assure that the UFSARs properly reflect the facilities. According to the letter, “The extent of
the licensees’ failures to maintain control and to identify and correct the failures in a timely
manner is of concern because of the potential impact on public health and safety should safety
systems not respond to challenges from off-normal and accident conditions.”


                                                 5
NRC Reviews Overall Response

Subsequent to NRC’s receipt and review of all licensee responses to the October 9, 1996,
letter, the staff issued SECY-97-160,6 which described a four-phased approach which NRC had
undertaken to review the licensee responses to the 10 CFR 50.54(f) request. The SECY
described the completion of the first three phases and concluded that all licensees had
established programs and procedures to maintain the design bases of their facilities. However,
SECY-97-160 also recommended certain plant-specific, final-phase followup activities to
address the staff’s concerns about either (1) the performance of certain licensees in controlling
facility design bases or (2) the need to validate the effectiveness of a particular element of a
licensee’s design control program.

A manager in the NRC’s Office of Nuclear Reactor Regulation (NRR) told OIG that the request
began with a high level of agency concern that there were widespread problems pertaining to
the accuracy of plant UFSARs and there was a heightened awareness that these problems
needed to be resolved as quickly as possible. However, as licensee efforts to address these
concerns unfolded, NRC staff recognized that this effort was more resource intensive than had
initially been anticipated, and staff allowed licensees to have more time to complete these
efforts.

IP2 Responds to NRC Design Bases Request

In response to NRC’s October 1996 10 CFR 50.54(f) request to ConEd regarding IP2, the
licensee made two specific commitments. In its February 13, 1997, letter that conveyed these
commitments to NRC, ConEd stated its intent “to voluntarily initiate and complete” an UFSAR
review program. The program was scheduled for completion within 24 months. The UFSAR
review program was to include (1) verification of the accuracy of the UFSAR design bases
information, (2) assessment to confirm that the UFSAR design bases information was properly
reflected in plant operation, maintenance, and test procedures, (3) review of the UFSAR to
identify and resolve any internal disagreements or inconsistencies which could impact the
design bases, and (4) development of a process to enhance overall the UFSAR accessibility.
In its second commitment, ConEd stated it would continue its “Design Basis Document (DBD)
Initiative” to review and update existing design bases documents and create new ones if
needed. The continuation of the DBD Initiative was to include supplementation of 22 DBDs with
a combination of additional DBDs and added information on interfacing systems. This effort
was also to be completed in 24 months.

IP2 Extends Completion Date

In a letter dated February 17, 1999 (24 months after the initial commitments were made),
ConEd provided an update to NRC concerning the commitments it had made pursuant to
NRC’s 1996 request. The letter reported that both the UFSAR verification effort and DBD
initiative were underway; the UFSAR effort was approximately 65 percent complete and the




        6
        SECY 97-160, “Staff Review of Licensee Responses to the 10 CFR 50.54(f) Request Regarding the
Adequacy and Availability of Design Bases Information,” dated July 24, 1997.

                                                     6
supplementation of 6 of 27 DBDs was in progress. The letter also changed the completion date
of both commitments: December 31, 1999, for the former and December 31, 2002, for the
latter.

OIG learned that NRC is not expected to formally approve changes in commitment completion
dates such as the one described above. According to the NRR manager, commitments are
often schedule or process related (e.g., licensee commitment to fix something by a specific time
or in a particular manner) and changes in completion dates are not necessarily problematic.
For example, the manager said, a rule may say to fix something in a timely manner and the
licensee will commit to do so within 2 months. However, if the licensee fails to make the
2-month deadline, the licensee may adjust the timeframe to another date that NRC would
consider timely.

The NRR manager and Region I staff told OIG that after IP2 became involved in these efforts,
all parties realized that the 2-year timeframe that ConEd initially committed to was unrealistic.
A number of plants, including IP2, required additional time to complete their review and NRC
staff generally viewed these extensions as reasonable.

OIG also learned that with regard to ConEd’s schedule change for the UFSAR commitment,
Region I staff felt IP2's progress toward fulfilling the commitment was proceeding in a timely
manner and that the schedule change was reasonable.

In June 2000, ConEd provided NRC with a new projected completion date of March 31, 2001,
for its commitment to verify the accuracy of the UFSAR, and ConEd reported that it still
anticipated completing its DBD initiative by December 31, 2002.

On December 31, 2002, Entergy forwarded correspondence to NRC modifying the completion
date for the original commitment that was due on December 31, 2002, to a revised commitment
date of December 31, 2003. According to the Region I Administrator and staff, the modification
of the completion date was reasonable and acceptable. The Region I Administrator said he
considered these deferrals to be appropriate given that numerous, more significant operational
and design-related issues emerged over this period requiring extensive licensee management
attention and resources.

Region I Oversees IP2 Progress in Fulfilling Design Bases Commitments

According to a Region I Branch Chief, he visited IP2 on April 3, 2001, and verified for himself
that the UFSAR update was “essentially done” and that ConEd was “just wrapping up loose
ends.” The Branch Chief drew this conclusion based on a presentation ConEd gave him
describing the methodology for and status of the UFSAR effort. Additionally, he stated that his
conclusion was supported by a series of NRC inspections conducted at IP2 since the initial
commitment that confirmed progress was being made. OIG reviewed NRC inspection reports
from October 1997 through August 2002 and found that some of the NRC inspections
specifically looked at the UFSAR and DBD efforts through baseline and special inspections.
These reports reflected inspectors’ observations that progress continued to be made in these
efforts.




                                                7
The Branch Chief also explained to OIG that when Entergy took over as the licensee for IP2 in
September 2001, it assumed ConEd’s commitment to complete its DBD Initiative by
December 31, 2002, without modifying the completion date. Entergy incorporated the
commitment into its “Fundamentals and Improvement Plan” for IP2. With regard to the status
of the DBD commitment, the Branch Chief said he visited the plant in May 2002 at which time
the plant had completed the review of 22 of the 27 DBDs and planned to complete 3 more by
the end of 2002.

According to NRC Inspection Report No. 05-247/2002-010, dated August 28, 2002, which
reported results of a supplemental and problem identification and resolution (PI & R) inspection
from June 17 through July 19, 2002, Entergy had revised its schedule for completing the DBD
effort. According to the inspection report, two remaining DBDs (fire protection and electrical
separation) would be completed in 2003, rather than by December 2002. The inspection team
concluded that the schedule modification was reasonable.

       OIG FINDING

       In February 1997, ConEd responded to NRC’s 10 CFR 50.54(f) request for information
       by committing to two separate 24-month efforts at IP2. In the first of these two
       commitments to NRC, ConEd stated its intent to initiate and complete an UFSAR review
       program and in its second commitment, ConEd stated it would continue its IP2 DBD
       Initiative to review and update existing design basis documents and create new ones if
       needed. Although ConEd initially committed to complete both efforts in 2 years, ConEd
       revised its projected completion dates two times for the first effort. The UFSAR review
       program, initially expected to be completed by February 1999, was extended to
       December 1999, and finally completed by April 2001. The completion date for the
       second effort was also revised twice, once by ConEd and the second time by Entergy
       Nuclear Operations, Inc., IP2's current license holder. The DBD Initiative, initially slated
       for completion by February 1999, was extended to December 2002, and is now
       expected to be finished by December 31, 2003. OIG found that the NRC staff did not
       object to the time extensions because it believed each extension was reasonable, given
       other significant operational problems at the plant, the effort that was required to fulfill
       the commitments, and the licensee’s steady, but slow, progress in addressing them.




                                                8
II. NRC’S RESPONSE TO REPORTED DISCREPANCIES BETWEEN RPS DESIGN
DRAWINGS AND AS-BUILT CONFIGURATION

The Reactor Protection System

The Reactor Protection System (RPS), a system described by NRC staff as “very safety
significant” to nuclear power plant operations, is designed to detect a problem in the plant and,
if the problem is serious enough, cause the plant to trip (i.e., to automatically shut down in an
emergency situation). According to NRC staff, the system can be manually or automatically
activated to initiate a plant shutdown. Staff said that to ensure that the reactor will shut down
when necessary, the RPS features multiple, independent equipment and components. Any
individual RPS component, therefore, could be significant. Furthermore, RPS interfaces with
many other safety systems for process monitoring of safety parameters such as reactor coolant
pressure, temperature and flow, pressurizer level, steam generator level, and reactor building
pressure. As a result, staff said, deficiencies in other systems could have an effect on RPS’s
ability to operate during an event.

The Region I Administrator told OIG it is a significant problem if the as-built configuration of a
system, such as the RPS, is inconsistent with what is needed for the system to be functional.
He said it is of lesser significance, but still important, when a system’s as-built configuration is
inconsistent with design drawings but is still functional. He explained that in either case,
inconsistencies between system configurations and design drawings may be indicators that
other issues within the system warrant attention.

IP2 Condition Reports Identify Design Bases Discrepancies

OIG learned that in February 2001, a ConEd engineering consultant raised an allegation to
Region I pertaining to design bases discrepancies between design drawings and the as-built
configuration of the RPS. The allegation referred to 13 IP2 condition reports (CR) that IP2 plant
personnel, including the engineering consultant, had written to describe these issues. These
CRs were a subset of a larger number (more than 300) of CRs written on RPS between 1998
and 2001.7 This subset of CRs identified circumstances in which the system’s wiring violated
statements in the UFSAR. For example, the CRs identified instances of wires associated with
computer and alarm circuits being in close proximity of and sometimes in the same cable tray
as the wires associated with the trip and logic circuits. The CR reported that these as-built
wiring configurations were in conflict with UFSAR wiring separation criteria.

OIG reviewed summaries of the 13 CRs raised in the allegation. Eight of the 13 (CRs
199803574, 199902835, 199903445, 199904968, 200007597, 200009499, 200009641,
200010125) focused on:

        Quality assurance requirements for design verifications,
        Wiring changes resulting from modifications that could not be located, and
        Wiring configurations not in accordance with UFSAR separation requirements.


         7
           As context, both regional staff and the IP2 engineering consultant told OIG that roughly 10,000 CRs were
being written per year during this timeframe concerning IP2 conditions perceived by licensee staff as in need of
attention.

                                                         9
A ninth condition report (CR 200100327) summarized the eight preceding CRs. The remaining
four condition reports (CRs 199900478, 199902274, 200008415, and 200008818) documented
additional examples of related RPS wiring discrepancies. (See Appendix A for a listing of the
13 CRs and a description of the issues covered in each.)

The engineering consultant told OIG that while employed at IP2 he wrote CR 200100327 as a
summary after becoming aware of the eight earlier CRs. These eight CRs summarized
documented deficiencies such as wiring separation issues, wiring configurations not in
accordance with design drawings, and cable splices not identified on drawings.

The engineering consultant told OIG that he was concerned that collectively these issues
warranted a higher level of attention than ConEd had determined was appropriate and that he
had raised the matter with ConEd management. Specifically, he explained, he wanted ConEd
to perform another Operability Determination (OD) on the RPS to determine whether the
system in its current configuration was operable. He told OIG that prior to his writing of CR
200100327, ConEd performed an OD (OD 00-018) on RPS that addressed a subset of the
issues raised in CR 200100327. However, he explained that in his opinion that OD did not go
far enough to assess the functional changes that may have resulted from the as-found wiring
conditions. Dissatisfied with ConEd’s response to the issues he raised, and concerned that
ConEd would downgrade CR 200100327 from Significance Level (SL) 2 to an SL3,8 the
engineering consultant formally raised the matter to Region I as an allegation.

NRC’s Response to RPS Design Bases Discrepancies

OIG reviewed documentation of NRC’s response to the issues raised by the engineering
consultant and learned that NRC:

        (1) inspected several RPS deficiencies prior to the engineering consultant’s allegation,

        (2) conducted an inspection focused specifically on the RPS wiring discrepancies
        described in CR 200100327, and

        (3) responded directly, in writing, to the engineering consultant on the outcome of NRC’s
        review of the concerns he raised in his allegation.

In the following three sections, OIG describes each of these efforts, which OIG learned,
collectively addressed each of the 13 CRs mentioned in the engineering consultant’s allegation.

(1) NRC Inspects RPS Deficiencies

OIG learned that prior to receipt of the allegation from the ConEd engineering consultant, and
during the course of escalated regulatory activities by Region I subsequent to a steam



        8
          IP2 CRs were ranked on a scale of 1 through 4, with SL1 assigned the highest level of significance. The
engineering consultant explained to OIG that CRs assigned a higher SL would receive a more heightened response
from ConEd. For example, CRs assigned as SL2 were required to receive a formal Operability Determination, while
this was not a requirement for CRs assigned as SL3.

                                                       10
generator tube rupture that occurred at IP2 in February 2000,9 a team of Region I inspectors
conducted a 7-week inspection of “engineering, operations and maintenance, radiation
protection, security, and weld radiographs associated with the steam generator replacement
project.” Inspection activities included a review of a sample of RPS open corrective action
items relating to the RPS’s nonconformance with design drawings and the UFSAR.

OIG reviewed the inspection report findings pertaining to the RPS review. The inspection report
(IR 05-247/2000-014), dated January 2001, described the RPS issue as follows:

        The issue involved the licensee’s observation that wiring within the protection racks did
        not always conform with the statements contained in the UFSAR and electrical
        separation criteria contained in drawing A208685. Specifically, the licensee found
        instances of wires associated with computer and alarm circuits being in close proximity
        of, and sometimes in the same cable tray as, the wires associated with the trip and logic
        circuits. The licensee also identified examples of switch contacts originally reserved for
        logic and trip function being used for computer and alarm functions. All potential
        interactions involved a single train of protection logic and low energy and low voltage
        circuits.

According to the NRC inspection report, the inspector reviewed three CRs mentioned in the
engineering consultant’s allegation (CRs 200007597, 200008818, and 200009499) related to
RPS logic rack wiring separation concerns, OD 00-018 (dated November 28, 2000), and OD
supporting documentation. Based on this review, the report concluded, “There were no
significant findings associated with this issue.”

The Region I inspector who conducted the review told OIG that the inspection was focused on
ensuring that the discrepant conditions reported in the three CRs did not affect the safe
operation of the RPS. Although the inspector acknowledged to OIG that it was better to review
all open issues and CRs related to a particular system and to sample closed CRs, the inspector
explained that he did not do so because of the limited scope of the review coupled with limited
manpower resources and time. The Region I Administrator explained to OIG that this sampling
of RPS issues was part of a larger review of deficiencies and corrective actions that needed to
be addressed at the plant.

(2) NRC Inspects RPS Wiring Discrepancy Issues Described in CR 200100327

OIG learned that following the engineering consultant’s allegation pertaining to the RPS, NRC
inspectors revisited the issues that the consultant had collectively recorded in CR 200100327
and documented their findings in a June 2001 inspection report (IR 05-247/2001-005) which
described the Region I inspectors’ review of:

        Corrective actions taken by ConEd to address issues raised in CR 200100327;




        9
         On February 15, 2000, IP2 experienced a steam generator tube rupture in one of the plant’s four steam
generators, which resulted in a minor radiological discharge to the atmosphere.

                                                       11
       ConEd’s February 12, 2001, OD 01-002, “Ensuring the Functional Capability of a
       System (RPS) or Component,” to determine whether the bases used in the OD were
       valid and accurate;

       Safety Evaluation 99-160-EV to change the UFSAR such that wire separation between
       safety and non-safety wires was no longer required; and

       RPS open condition reports.

These inspection efforts are described below.

       Corrective Actions Taken to Address CR 200100327 Issues

OIG reviewed IR 05-247/2001-005, which described Region I’s examination of the licensee’s
corrective actions associated with CR 200100327 and the eight feeder CRs, and corrective
actions pertaining to CR 200008415 and one additional CR not referenced in the allegation.
The inspection report indicated that as background for the inspection, NRC reviewed CRs
199900478 and 199902274, which had been referenced in the allegation. According to the
inspection report, inspectors also:

      Reviewed a ConEd evaluation titled, “SL-2 Evaluation for CR 200100327 on the Reactor
       Protection System,” dated March 7, 2001, to confirm that this evaluation addressed
       appropriate root causes, contributing causes, compensatory actions and the proposed
       corrective actions.

      Attended a Corrective Action Review Board (CARB) meeting which reviewed and
       discussed the evaluation.

      Reviewed the list of ICA (Implementation of Corrective Actions ) for CR 200100327 to
       confirm that the listed corrective actions adequately addressed the root causes and the
       concerns raised in CR 200100327.

      Reviewed a sample of corrective actions and issues to determine whether these
       corrective actions were timely and appropriate to address the issues.

      Reviewed the rationale provided for delayed corrective actions.

      Reviewed IP2 documents to confirm that on February 12, 2001, ConEd had generated
       OD 01-002, “Ensuring the Functional Capability of a System (RPS) or Component,” to
       demonstrate that the RPS can perform its safety function, in spite of the combined
       wiring and documentation deficiencies.

      Reviewed IP2 documents to confirm that on March 12, 2001, ConEd completed a safety
       evaluation to address the wiring separation issue regarding RPS wiring configuration
       conformance with the UFSAR.




                                                12
Based on this review, the inspectors found no issues that would render the RPS incapable of
performing its intended safety function. Specifically, the inspection report stated that no
findings of significance were identified.

       ConEd’s Operability Determination (OD) 01-002, “Ensuring the Functional Capability of
       a System (RPS) or Component”

According to IR 50-247/2001-005, ConEd generated OD 01-002 “to demonstrate that the RPS
could perform its safety function.” OIG learned that Region I inspectors reviewed OD 01-002 to
determine whether the bases used in the determination were valid and accurate. The
inspectors also reviewed supporting documents used in the OD to verify that the data and
bases were accurately translated. Supporting documents reviewed included RPS test
procedures and test results, a modification for replacing 88 relays in the RPS, and a sample of
CRs associated with RPS wiring issues. CRs reviewed included CR 200008818 and two
additional CRs not mentioned by the alleger. Based on their review of this issue, the Region I
inspectors again concluded that there were “no findings of significance.”

       Safety Evaluation 99-160-EV

Inspection report 50-247/2001-005 noted that in March 2001, ConEd generated a safety
evaluation (SE 99-160-EV) to change the UFSAR so that wire separation between safety and
non-safety wires would no longer be required and “safety and non-safety wires can run together
within a panduit inside the RPS cabinet.” However, according to the Region I inspectors, the
safety evaluation did not provide sufficient rationale to justify the change to the UFSAR.
According to the inspection report, this matter was not resolved during the inspection and was
referred to NRR for review. OIG learned that the results of NRR’s review were documented in
IR 50-247/2001-010, dated December 17, 2001. In that inspection report, NRR acknowledged
that SE 99-160-EV failed to address certain relevant issues; however, NRR concluded that the
wiring separation between safety and non-safety wires inside the RPS cabinets was not a
design requirement for IP2 and was in compliance with industry standards. Consequently, the
wiring configuration at IP2 met design requirements and the issue was closed.

       RPS Open Condition Reports

As part of this inspection effort, inspectors also reviewed the RPS condition report history since
1998 and found that since that time more than 300 CRs had been written on the RPS. As of
March 9, 2001, 47 CRs remained open in the database, some for almost 3 years. ConEd’s
records indicated that of the 47 CRs, 3 were ranked as SL4; 37 were ranked as SL3; and 7
were ranked as SL2. The inspection report stated that in response to the inspectors’ concerns
about possible combined operability or functional effects from the 47 open CRs, ConEd
performed an overall assessment of the 47 open CRs and concluded that no functional
problems existed. The inspectors reviewed a sample of four CRs to confirm that there were no
combined effects that could challenge the functionality of the RPS. The selected CRs were,
based on the inspectors’ judgement, most likely to yield inspection findings. Based on this
review, the inspectors again identified no findings of significance.




                                                13
(3) Region I Response to Engineering Consultant’s Allegation

In a letter dated July 19, 2001, Region I formally responded to the ConEd engineering
consultant who wrote CR 200100327 and who subsequently raised the RPS-related issues to
Region I. The letter summarized the consultant’s RPS-related concerns as presented in CR
200100327, relayed NRC’s inspection findings (from IR 50-247/2001-005) pertaining to these
concerns, and described the licensee’s actions to address them. In its letter to the engineering
consultant, Region I addressed the consultant’s concern that “there is a lack of response effort
and inadequate corrective actions in response to concerns [the consultant] raised regarding
deficiencies in the design record and configuration control of the Reactor Protection System
(RPS).” The Region I letter also addressed the consultant’s concern that OD 00-018
“adequately addressed RPS wire separation and isolation issues, but not the broader concerns”
(i.e., loss of design control due to wiring configurations). The letter explained that in response
to these concerns, NRC completed an inspection of RPS wiring issues at IP2 on May 4, 2001,
that was documented in IR 50-247/2001-005.

The letter also explained that to address the “broader issue for the RPS wiring,” ConEd
completed an RPS operability determination (OD 01-002) on February 12, 2001, completed a
root cause evaluation for CR 200100327, entitled, “SL-2 Evaluation for CR 200100327 on the
Reactor Protection System,” on March 7, 2001, and established a corrective action program to
address other broader aspects of the RPS wiring deficiencies.

In its conclusion to the consultant’s concern about RPS configuration control/design record
deficiencies, the letter stated,

       . . . your concern was partially substantiated. There were design control weaknesses at
       IP-2. However, at the time of our inspection, ConEd had established a corrective action
       plan to address the broader issue as described above [i.e., loss of design control].
       Further, our inspection did not uncover any issues that would render the RPS incapable
       of performing its intended safety function.

The letter also addressed the consultant’s concern that CR 200100327, initially assigned an SL
of 2, would be reassigned an SL of 3 and that, as a result, ConEd would not conduct an OD “or
otherwise address the broader operability issue raised by the lack of quality control in the
changes made to the RPS.” The letter explained that (1) the licensee did, in fact, complete an
OD for the RPS (OD 01-002), which “addressed some important wiring issues;” (2) NRC’s
inspection did not identify any issues that would affect the functionality of the RPS; and (3) CR
200100327 remained as an SL2 CR.

The Region I inspectors responsible for reviewing the concerns identified by the engineering
consultant told OIG that they did not find anything that would render the RPS inoperable.

       OIG FINDING

       Beginning as early as 1998, ConEd identified problems associated with the IP2 RPS
       wiring configurations and generated internal CRs to document the findings. These CRs
       identified circumstances in which the system’s wiring violated statements in the UFSAR.
       Thirteen CRs identifying (or reiterating) such wiring discrepancies were presented


                                               14
formally to the NRC as an allegation by an IP2 engineering consultant who was
concerned that collectively the RPS wiring discrepancies warranted a higher level of
attention than the licensee had determined was appropriate. OIG learned that Region I
performed two inspections relative to these issues and the NRC’s Office of Nuclear
Reactor Regulation documented its review in a third inspection report. In addition,
Region I responded directly to the engineering consultant in a letter dated July 19, 2001.
OIG determined that the NRC appropriately responded to the allegations presented to
Region I by the engineering consultant. OIG’s review of the three inspection reports and
Region I’s response to the engineering consultant determined that while NRC validated
some of the issues the consultant had raised, the agency repeatedly concluded there
were no “findings of significance” related to the RPS wiring issues and that ConEd had
appropriate measures in place to address the conditions.




                                       15
III. NRC REGULATORY OVERSIGHT OF IP2'S CAP: 1995 – 2001

Overview of IP2 Operational Problems

Between 1995 and 2001, IP2 experienced a series of operational problems, attributed in part to
deficiencies in IP2's corrective action program (CAP) (i.e., its program to self-identify and
resolve plant problems). For example,

      In 1995, plant personnel cleaned a turbine using grit. The grit caused significant
       damage to the internal components of a heater drain tank pump and migrated
       unchecked throughout the feedwater system, surfacing 2 years later and causing valves
       to operate erratically.

      NRC inspections conducted between 1996 and 1997 identified various issues, including
       weaknesses in corrective actions taken to address problems identified by the plant. As
       a result, in May 1997, NRC issued an NOV citing IP2 for nine violations of NRC
       requirements, six of which were attributed to corrective action violations.

      In the fall of 1997, IP2 voluntarily shut down to address a large backlog of equipment,
       programmatic, and performance problems. The plant remained out of service until
       September 1998.

      In 1998, in NRC Evaluation Team Report 05-247/1998-005, NRC noted that IP2 had
       identified problems with its CAP in that its corrective action processes were
       cumbersome and inefficient, many corrective actions were untimely, and completed
       actions were typically not revisited to determine whether they had achieved their goal.

      In August 1999, IP2 experienced a significant reactor trip, or shutdown, partly due to
       weaknesses in its CAP.

      In February 2000, IP2 experienced a steam generator tube rupture, also partly attributed
       to weaknesses in the plant’s CAP.

      In May 2000, NRC categorized IP2 as an Agency Focus Plant, a status that denotes a
       need for increased oversight by NRC.

      In 2001, NRC found that IP2 continued to experience problems in its CAP, including
       issues pertaining to its RPS.

Significance of the Corrective Action Program

NRC inspects many aspects of nuclear power plants to ensure their safe operation, including
the licensees’ ability to identify and correct conditions that may affect plant performance and
safety. Title 10 of the Code of Federal Regulations, Chapter 50 (10 CFR 50), Appendix B,
directs licensees to have a program to assess problems in plant operations and to ensure that
timely and effective corrective actions take place. Therefore, it is the licensee’s responsibility to
implement a program to identify and resolve problems at its facility. Historically this has been
referred to as the nuclear power plant’s CAP.


                                                 16
NRC Region I staff told OIG that overall plant performance is greatly determined by the
effectiveness of a licensee’s CAP. Staff told OIG that they expect licensees to be aggressive in
identifying concerns and appropriately correcting problems, but they recognize that every plant
has problems that need to be addressed. When a CAP is effective, staff said, a licensee is
able to identify, prioritize, and quickly resolve conditions that may have a negative impact on
plant operations. Staff said they have found that the better performing plants are very
aggressive at correcting deficiencies. These plants are also proactive in conducting preventive
maintenance and in monitoring plant equipment and conditions. As a result, staff said, those
licensees have more durable solutions to their problems than poorer performing plants.

Several staff members interviewed by OIG observed a direct connection between ineffective
CAPs and NRC’s identification of a plant as an NRC Watch List10 Plant. According to one staff
member, in every case where a plant had problems or became an NRC Watch List Plant, there
was a corresponding weakness in the licensee’s ability to identify, evaluate, and correct
problems, as well as a weakness in assessing the effectiveness of their corrective actions.

The Region I staff told OIG that if NRC lost confidence in a licensee’s CAP, the agency would
seriously consider whether the licensee should be permitted to operate.

NRC Identifies Repeated Problems With IP2 CAP

OIG was told by the Region I Administrator and staff that between 1995 and 2001, NRC
dedicated significant resources to conduct inspections, document findings, and issue sanctions
at IP2, yet problems persisted at the plant. Many of the inspections identified problems
with IP2's CAP; however, despite heightened levels of NRC attention to these weaknesses,
problems related to corrective actions remained unresolved. [See Appendix B for a chronology
detailing the significant inspection activity and other oversight efforts performed at IP2 by NRC
during this period.]

According to Region I staff, between April 1995 and February 2001, NRC conducted 20 special
team inspections at IP2, logging 5,870 inspection hours dedicated to engineering and problem
identification and resolution (PI&R).11 By comparison, the average number of hours devoted to
these types of inspections at other single unit12 Region I nuclear power plants during the same
period was 3,854. Furthermore, between 1995 and 2001, IP2 received 13 enforcement actions,
9 of which identified corrective action issues and 8 of which resulted in monetary fines. [See
Appendix C for additional information on these 13 enforcement actions.] This expenditure of
inspection resources at IP2 was NRC’s response to a perceived downward performance trend


          10
               In 1999, there was a change in NRC terminology; Watch List plants are now referred to as Agency Focus
Plants.
          11
           NRC now refers to the CAP as problem identification and resolution (PI&R). This Event Inquiry, which
covers a time period during which the term used to describe the process changed, refers to the process as CAP.
          12
            According to a Region I Branch Chief, the term “single unit” generally refers to a nuclear power plant site
with only one operating reactor inside the protected area fence. Although there are two operating units at the Indian
Point site (IP2 and IP3), Region I treats IP2 as a single unit site due to its past regulatory performance problems.
This results in the allocation of more inspection resources at IP2 than would be the case if the plant were treated as
a dual-unit site.

                                                           17
that was occurring during the 1995–1999 time frame. According to NRC Region I staff,
between 1995 and 2000, overall IP2 performance was not considered very good. Staff said
that during that time period, IP2 had problems related to the plant’s CAP.

Region I staff told OIG that it viewed 1995 as a downward turning point for the plant and
recalled the grit intrusion event that occurred that year as an example of this decline. Between
October 1996 and April 1997, NRC staff conducted four inspections of IP2, which resulted in
the issuance of an NOV in May 1997 based on nine violations of NRC requirements. The
inspections included an Integrated Performance Assessment Process (IPAP) and three routine
inspections conducted by the NRC resident inspectors. Problems identified during the
inspections included weaknesses in IP2's design control which, staff explained, pertained to the
availability and completeness of design bases information and problems with the CAP.

The Region I Administrator told OIG that following February 1997 there was a series of events
that occurred at IP2, coupled with NRC’s inspection findings, that reinforced his concerns about
IP2's declining performance. He told OIG that the NRC subsequently sent a message to
ConEd management by issuing fairly significant civil penalties and a confirmatory action letter
(CAL).13 Additionally, he met with ConEd’s Chief Executive Officer to address NRC’s concerns
about IP2's declining performance, the decline in overall effectiveness of management
oversight, and a perception that management tolerated problems rather than aggressively
identifying and correcting them.

Consequently, ConEd management responded to Region I by documenting actions it planned
to take to arrest the performance declines and to improve the quality of these activities. These
detailed action plans were included in a program that ConEd identified as the Strategic
Improvement Program.

Declining Systematic Assessment of Licensee Performance Scores

According to the Region I Administrator and Region I staff, the Region’s concerns about IP2's
performance in 1996 were documented in NRC’s Systematic Assessment of Licensee
Performance (SALP) scores and periodic SALP reports for IP2. The SALP was an NRC
evaluation of plant performance conducted every 12 to 24 months within the parameters of
NRC’s inspection program. The report included a numerical rating of the plant in four
categories — plant operations, maintenance, engineering, and plant support — as well as a
narrative discussion of performance in each area.

In the SALP report covering the period from September 17, 1995, through February 15, 1997,
Region I staff noted that overall performance at IP2 declined. Performance in the areas of
operations and plant support were rated as generally effective and some elements were very
good; however, performance declined in maintenance and substantively declined in
engineering. The SALP report noted many equipment problems were due to the poor condition




        13
          CALs are letters issued by NRC to licensees or vendors to emphasize and confirm a licensee's or
vendor's agreement to take certain actions in response to specific issues.



                                                       18
of a number of systems. Licensee management was involved in many plant activities and
made operational decisions, but management oversight was at times ineffective regarding
overall efforts to identify, evaluate, and correct problems.

IP2 Shuts Down To Address Backlog of Problems

OIG learned that following repetitive failures of safety-related electrical breakers, IP2 voluntarily
shut down to address a large backlog of equipment, programmatic, and performance problems.
This outage lasted from October 1997 until September 1998. According to NRC staff, IP2 used
this period to try to better identify and correct these deficient conditions at the plant.

Instead of conducting a planned Operational Safety Team Inspection (OSTI)14 of IP2, NRC
permitted ConEd to hire a team of independent experts to conduct an Independent Safety
Assessment (ISA) of the power plant in the spring of 1998. NRC assembled a special NRC
Evaluation Team (NET) to gauge the validity and effectiveness of the ISA and review the
outcome. The NET observed and evaluated the IP2 ISA from March 30 through May 7, 1998,
to assess the validity of the ISA conclusions and to determine whether the ISA had fulfilled
NRC’s intent to obtain an OSTI-type performance assessment. According to the NET report,
the ISA achieved noteworthy insights, including the identification of problems with IP2's CAP.
Specifically, the ISA found that the CAP was cumbersome and inefficient, many corrective
actions were untimely, and completed actions were typically not revisited to see whether they
had achieved their intended impact. According to an NRC staff member who participated in the
review, IP2's CAP “was not working very well at all.”

Subsequent to the ISA findings, ConEd developed plans to improve station performance and,
according to the regional staff and inspection reports, IP2's performance began slowly to
improve following plant startup in September 1998. According to the NRC staff, inspection
reports, and other docketed correspondence between NRC and ConEd, substantial changes
were made to IP2's CAP during this period. However, although progress was made, a number
of problems remained that required continued licensee management attention.

IP2 Experiences Two Significant Events

In August 1999, IP2 experienced a reactor trip, or shutdown, a risk-significant event that NRC
staff characterized as preventable and partly attributable to weaknesses in IP2's CAP. The
reactor trip was caused partly by a condition involving repetitive problems with one channel of
RPS’s over-temperature/delta-temperature circuitry. The condition, which existed since
January 1999, had not been promptly identified, the cause of the condition had not been
determined, and corrective actions had not been taken. According to the Region I
Administrator, while the August 1999 event challenged safe operation, safety margins were
maintained at an acceptable level.




         14
            At the time, OSTIs were conducted to supplement normal inspections for special purposes such as to
verify that a plant operator has properly prepared the staff and the plant for resumption of power operations after an
extended shutdown. These inspections were performed by either a headquarters or regional team and typically
consist of a 2-week onsite inspection conducted by a team of seven inspectors and a team leader.

                                                          19
In February 2000, IP2 experienced yet another significant problem attributed to weaknesses in
IP2's CAP: a steam generator tube ruptured in one of its four steam generators, resulting in a
leak that allowed pressurized radioactive water, which acts to cool the reactor, to mix with non-
radioactive water in the steam generator. The power plant was manually shut down following
the event. This resulted in a minor radiological discharge to the atmosphere.

CAP Problems Persist at IP2

In an NRC inspection report (IR 05-247/2001-002) issued in 2001, the Region I inspection team
again noted weaknesses in IP2's CAP. According to the report, IP2's progress to effect change
continued to be slow. The report “noted problems similar to those that have been previously
identified at the IP2 facility, including those in the areas of design control, human and
equipment performance, PI&R, and emergency preparedness.”

When interviewed by OIG, Region I staff attributed IP2's CAP problems to a large backlog of
problems — any one of which might not appear significant. Staff said that IP2 was able to
identify problems but was frequently ineffective at prioritizing and correcting them and
determining their root cause. Staff attributed this specifically to a cultural problem at IP2 that
was not recognized by ConEd management until after the August 1999 event. Staff described
this culture as one in which ConEd management did not emphasize or encourage staff efforts
to prioritize the correction of problems and identify root causes.

The Region I Administrator and staff acknowledged that the improvements at IP2 were slow,
and in some respects limited, but steady. The Region I Administrator told OIG that IP2 met
NRC’s minimum regulatory requirements and there was never a situation where the margins of
safety had been reduced to a point where the plant was unsafe. He added that as a regulator
one has to work within the regulatory framework and distinguish between conditions that are
unsafe and conditions that involve weaknesses in performance. The Region I Administrator
and staff repeatedly emphasized to OIG that the increased inspections and aggressive
oversight never identified a situation where IP2 was unsafe.

The Region I Administrator explained to OIG that IP2's rate of improvement above fundamental
protection of public health and safety is determined by the plant management. The licensee
determines the type and amount of resources that it will apply to facilitate improved
performance. The licensee also makes personnel selections at the plant and it is ultimately up
to the individuals hired to make these improvements and effect change. The Region I
Administrator told OIG that he continually pressed ConEd management to strengthen the
margins of safety at IP2 by conducting numerous inspections and special assessments and by
communicating the Region’s findings to ConEd in a clear and direct manner.

       OIG FINDING

       Between 1995 and 2001, IP2 experienced a series of operational problems, attributed in
       large part to deficiencies in IP2's CAP. OIG found that during this period, Region I
       dedicated significant resources to conduct inspections, document findings, and issue
       sanctions, yet problems persisted at the plant. Between April 1995 and February 2001,
       NRC conducted 20 special team inspections at IP2, logging 5,870 inspection hours
       dedicated to engineering and problem identification and resolution. Furthermore,


                                                20
between 1995 and 2001, Region I issued 13 enforcement actions to IP2. Many of the
inspections identified problems with IP2's CAP. However, despite heightened levels of
NRC attention to these weaknesses, problems at IP2 remained unresolved. OIG found
that in spite of the intensified regulatory oversight by Region I, IP2 was only able to
achieve limited improvement in plant performance.




                                       21
IV. NRC’S UTILIZATION OF THE SMM PROCESS TO HEIGHTEN ATTENTION AT IP2

Senior Management Meeting Process

Between 1986 and 2001, NRC held Senior Management Meetings (SMM) semiannually to allow
NRC senior managers to focus agency attention on those plants of highest concern and to
monitor licensee efforts to recognize and resolve performance problems. According to the
March 1997 version of NRC Management Directive (MD) 8.14, “Senior Management Meeting
(SMM),” the primary goal of an SMM was to identify declining trends in the operational safety of
individual plants so that early corrective actions could be implemented. OIG was told by senior
NRC managers that the SMM offered a means to communicate NRC’s concerns to licensees
with poor or adverse performance trends.

During the SMM, the senior NRC managers could opt not to take action regarding a particular
plant or they could choose to take one of several actions to heighten oversight. For example,
senior managers could choose to issue a Trending Letter to advise a licensee that NRC had
taken notice of declining plant performance and that if performance did not improve, the plant
might be placed on the NRC’s Watch List. Or, the managers could choose to place a plant
directly on the Watch List. A plant placed on the Watch List received increased oversight from
NRC in the form of additional inspections, letters expressing agency concerns about declining
performance, and other types of regulatory attention. According to the NRC staff, designation
as a Watch List plant could also bring significant public attention to a licensee and could result
in a negative economic impact for the utility. These potential negative consequences would
motivate a licensee to improve plant performance.

Senior Management Meetings were chaired by the NRC Executive Director for Operations.
Participants typically included the Deputy Executive Director for Regulatory Programs; Deputy
Executive Director for Regulatory Effectiveness, Program Oversight, Investigations and
Enforcement; Deputy Executive Director for Management Services; Regional Administrators;
Directors of the Offices of Nuclear Reactor Regulation, Analysis and Evaluation of Operational
Data, Nuclear Material Safety and Safeguards, Nuclear Regulatory Research, Enforcement ,
Investigation, and State Programs; and senior managers from the Office of the General
Counsel.

Region I Administrator Seeks SMM Action on IP2

OIG learned that paralleling NRC’s inspection activity at IP2 from 1997 through 2000 was a
series of attempts by the Region I Administrator to further heighten NRC oversight at the plant
through the agency’s SMM process. At the June 1997 SMM, the Region I Administrator
presented his concerns regarding the declining performance of IP2 that was the result of
significant equipment, human performance, and technical support performance issues that
were apparent in late 1996. NRC Regional Administrators and senior managers told OIG that
at the June 1997 SMM, the Region I Administrator made “a strong presentation” regarding IP2's
performance and his belief that IP2 should be designated as a Watch List plant. However, the
senior managers decided not to designate IP2 as a Watch List plant but to continue providing
the heightened level of regional oversight underway at the time. According to the senior
managers, and based on minutes of the SMM proceedings, the information presented at the
SMM did not identify a situation where the plant was unsafe, a safety system was inoperable, or


                                                22
adverse trends were apparent. Thus, the senior managers determined that IP2 did not warrant
agency-level action.

During the SMM held in January 1998, the Region I Administrator again presented IP2 for
discussion asserting that there had been little change in performance in most respects over the
prior 6 months; that recent inspections raised additional concerns with respect to performance;
that NRC inspectors, rather than ConEd, continued to identify many of the performance
problems, particularly in operations and engineering; and that equipment and human
performance issues continued to be of concern. Additionally, the informality of processes
contributed to problems observed in several areas, including technical specification
implementation, procedural adherence, problem identification, and timely effective resolution of
issues. OIG learned that this time, the consensus of the senior managers was to conduct a
diagnostic-type review to obtain additional information on the plant’s condition and not to issue
a trending letter or put the plant on the Watch List. Again, the senior managers believed that
Region I did not identify a situation where the plant was unsafe or a safety system was
inoperable; however, they acknowledged that IP2 continued to exhibit performance
weaknesses, and they noted that a definitive improvement trend was not apparent.

In July 1998, the Region I Administrator again presented IP2 at the SMM in the belief it should
be designated as a Watch List Plant. He asserted that the performance at IP2 was largely
unchanged during the preceding 6 months with respect to human performance and the control
of plant activities. Additionally, the 1998 Independent Safety Assessment (ISA) conducted by
ConEd identified some important deficiencies and weaknesses that existed at IP2 particularly in
the areas of management and operations. Despite the Region I Administrator’s presentation,
the SMM again declined to designate IP2 a Watch List plant. This time, the SMM decided to
maintain, rather than increase, the level of attention to allow the licensee a period of time to
execute its performance improvement initiatives. The senior managers recognized that IP2
continued to have performance weaknesses, but again they believed that Region I did not
identify a situation where the plant was unsafe or a safety system inoperable.

IP2 was not discussed during the April 1999 SMM. The Region I Administrator told OIG that he
did not recommend that IP2 be presented for discussion because it had experienced no
significant events since the last time he presented the plant for SMM discussion. He felt that in
1999, performance weaknesses still existed but that IP2 was no worse than in preceding years
and was, in fact, slowly improving. He said he still would have preferred SMM action; however,
he felt he lacked a basis for presenting the plant at the SMM.

SMM Designates IP2 as Agency Focus Plant in May 2000

In May 2000, the Region I Administrator presented IP2 at the SMM after the occurrence of two
significant events at the plant, the August 1999 reactor trip and the February 2000 steam
generator tube rupture. OIG learned that overall, the events and related findings during this
assessment period represented issues that were of substantial significance; therefore, the
senior managers categorized IP2 as an Agency Focus Plant under the revised SMM process.15


        15
         In April 1999, the Commission approved SECY 99-086, “Recommendations Regarding the Senior
Management Meeting Process and Ongoing Improvements to Existing Licensee Performance Assessment
Processes.” SECY 99-086 eliminated the “Watch List” and proposed that during SMM meetings, participants would

                                                     23
According to the SMM minutes, the senior managers concluded that the broad performance
issues that had existed at IP2 for the past several years revealed a number of deficiencies in
the plant’s CAP and that IP2 improvement initiatives yielded some progress but, overall, were
limited in remedying the underlying problems.

According to the Region I Administrator, the August 1999 and February 2000 events revealed
the depth of IP2's performance problems and were evidence of the significant issues discussed
at previous SMMs. Region I staff echoed this sentiment to the OIG, questioning why — given
the inspection history, the identified problems, the NRC man-hours at the plant, and the history
of civil penalties — IP2 was not put on the Watch List sooner.

Current Status of IP2

Region I staff has informed OIG that since March 2001, NRC has provided a significant amount
of oversight and inspection effort at IP2. The Region I staff performed 12,950 hours of
inspection activity at IP2 between March 1, 2001, and March 1, 2003, compared to an average
of 8,297 hours at other single unit sites in Region I. (See Appendix B for a chronology of NRC
inspection activity at IP2 during this time period.) Of the 12,950 hours of inspection performed
at IP2 during this 2-year period, 2,216 hours were focused on engineering and PI&R compared
to an average of 1,077 hours devoted to these areas at other single-unit Region I sites. The
staff informed OIG that these figures indicate that during this period, IP2 has received about 1.5
times as much inspection as the average for other single-unit sites and about 2 times as much
inspection pertaining to engineering and PI&R.

Annual assessments of plant performance16 performed since the plant was categorized as an
Agency Focus Plant in May 2000 indicate that IP2 performance has been improving, albeit
slowly, since that time. NRC’s annual assessment of plant performance for April 2, 2000, to
March 31, 2001, found that while IP2 met all cornerstone objectives, it remained in the
Multiple/Repetitive Degraded Cornerstone column of the NRC’s ROP Action Matrix. According
to the Region I staff, that assessment noted a number of issues in design control, equipment
reliability, PI&R, and human performance. While some performance improvements were noted,
progress was considered slow and limited in some areas. Region I staff noted that as of
December 31, 2001, IP2 remained in the Multiple/Repetitive Degraded Cornerstone column of
the Action Matrix.




determine whether a plant warranted Agency Focus (characterized by NRC Executive Director for Operations and
Commission involvement, e.g., issuance of an order), Regional Focus (managed by the regional administrator, e.g.,
issuance of a confirmatory action letter), or routine oversight.
         16
            Under the ROP, NRC assesses licensee performance in various ways, including quarterly plant
performance assessments based on inspection findings and performance indicator data. Regional offices conduct a
more comprehensive review after the second quarter of the year (mid-cycle) to assist in planning inspections for the
next 6 to 12 months. The regions also conduct an annual (end-of-cycle) review after the fourth quarter of the year to
develop an annual performance summary for each plant and to plan inspections for the next 12 months. NRC uses
an Action Matrix to assist staff in reaching objective conclusions regarding licensees’ safety performance. The
matrix allows for plants to be categorized into five possible results categories, or matrix columns, which indicate the
plant’s level of performance and the agency’s required response. Categories (from lowest to highest performance)
are (1) Unacceptable Performance, (2) Multiple/Repetitive Degraded Cornerstone, (3) Degraded Cornerstone, (4)
Regulatory Response, and (5) Licensee Response.

                                                          24
Significant inspection activity continued during 2002, including an augmented PI&R inspection
and supplemental team inspection in June and July 2002. OIG was told that in August 2002,
IP2 had made sufficient progress to justify removal of the plant from the Multiple/Repetitive
Degraded cornerstone into the Degraded Cornerstone column of the Action Matrix. OIG was
told by the Region I Administrator that on February 7, 2003, NRC completed its end-of-cycle
plant performance assessment of IP2 covering performance from January 1, 2002, through
December 28, 2002. NRC concluded that during that time period, IP2 continued to operate in a
manner that preserved public health and safety.

The Region I Administrator and staff told OIG that Region I fully utilized the regulatory tools it
had available to deal with IP2. The Region I Administrator said that although the plant was
never unsafe, improvement in IP2's performance might have been swifter had the plant been
designated a “Watch List” plant by the SMM earlier. This designation would have sent a
powerful message to the licensee concerning the need for improved performance.

The Region I Administrator commented that while the agency’s senior managers designated the
plant as an “Agency Focus Plant” in May 2000, this occurred after the plant had reversed its
downward trend and, in fact, the designation had a relatively small impact on recent plant
operations because the plant’s declining performance had already been arrested as a result of
earlier actions taken by the NRC. The Region I Administrator also noted that SMM
deliberations were always thorough but that decisions were inherently difficult given the
complexity of issues involved.

Additionally, the Region I Administrator commented to OIG that Entergy’s purchase of IP2 in
September 2001, had a considerable impact on plant performance. According to the Region I
Administrator, Entergy conducted its own self-assessment of IP2 and subsequently committed
significant resources to the plant. Furthermore, Entergy had experience operating other
nuclear power plants, was aware of the need to inject resources to improve plant performance,
and had those resources available. Entergy also understood the need to bring top
management talent to operate the plant, which it did. According to the Region I Administrator,
this shift in ownership facilitated the IP2 improved performance trend.

The Region I Administrator considered IP2's improvement as an NRC “regulatory success
story.” He stated that NRC’s aggressive oversight and intervention arrested the decline in early
1996 and prevented IP2 from ever getting to the point where it was unsafe to operate. He
acknowledged that IP2's improvement has been slow at times and often uneven, but that,
overall, plant performance has steadily improved. In his view, the conditions that led to IP2's
poor performance in the mid-1990s developed over a number of years and, therefore, required
time to resolve. He credited NRC oversight efforts performed at IP2 since 1996 with having
caused the plant to reverse its downward performance trend and begin its slow progress toward
the performance improvement reflected in the NRC’s recent assessment letters.

       OIG FINDING

       On four occasions between 1997 and 2000, the Region I Administrator sought additional
       NRC oversight for IP2 by seeking to have NRC’s senior managers place IP2 on NRC’s
       Watch List via the agency’s Senior Management Meeting process. However, it was not
       until May 2000, after the August 1999 reactor trip and the February 2000 steam


                                                 25
generator tube rupture, that NRC senior managers agreed that this form of heightened
attention was appropriate. In May 2000, IP2 was classified as an Agency Focus Plant.
Subsequent to being so designated, NRC annual assessments of plant performance
indicated that IP2 had improved. OIG concurs with the Region I Administrator and his
staff that placing IP2 on the Watch List sooner might have sufficiently motivated the
licensee to cause earlier improved performance.




                                      26
                                  APPENDIX A
                      Summary of IP2 RPS Condition Reports


CR 199803574 identified a discrepancy between the RPS wiring configuration and a description
in section 7.2.2.9 of the UFSAR of isolation between safety signals and annunciator and/or
computer signals. Contrary to the UFSAR statement that “The center and front decks of RPS
logic relays are used for annunciator and computer signals respectively,” 22 RPS logic relays
were found to violate this criterion.

CR 199900478 identified discrepancies between design drawings and the as-built configuration
with respect to contact state associated with interposing relays for the low autostop oil pressure
protection scheme. The corrective action for this condition involved revision of four drawings to
reflect the field condition.

CR 199902274 identified “minor” inconsistencies affecting 14 RPS and ESF drawings.
Corrective action involved revising the affected drawing based on comments received from an
outside contractor who was tasked with the drawing review.

CR 199902835 identified three distinct discrepancies between plant drawings and the as-built
condition. These discrepancies involved: RPS logic relays used to block the “Source Range
High Influx at Shutdown” annunciator, drawings showing RPS relay contact configuration
different from the as-built condition, and incorrect RPS relay nomenclature on plant drawings.
The corrective action for this CR was limited to revising the affected drawings to agree with the
as-found condition.

CR 199903445 was initiated because the drawing revisions prepared in response to CR
199902835 were in error. This CR also identified an additional drawing error in which the
drawing showed the incorrect RPS relay contacts used for the Source Range High Flux at
Shutdown annunciator block.

CR 199904968 identified another discrepancy between the design drawings and the as-found
configuration of the RPS. This discrepancy involved contacts from RPS relay P10-2 that are
used to defeat the Source Range Loss of Detector Voltage annunciator above 10% reactor
power which are not shown on plant drawings. The corrective action for this CR involved a field
verification of the configuration and revision of the affected drawing to reflect the as-found
condition.

CR 200007597 identified a number of potential internal wiring related discrepant conditions in
the reactor protection racks. Isolated cases of wire routing and/or terminations were observed
to be inconsistent with routing/separation requirements stated in the UFSAR. In response to
this CR an Operability Determination (OD) 00-018 was issued to address the wiring
routing/separation issues. The OD determined that the RPS was operable.

CR 200008415 identified drawing discrepancies between Westinghouse RPS wire lists and field
conditions, however, an operability determination concluded that this did not constitute an
operability concern.



                                                27
CR 200008818 identified a broken contact in a reactor trip relay, unidentified, unterminated
switchboard wire with exposed lugs in RPS cabinets, and a mixing of wiring associated with
computer/logic/annunciator functions. The broken contact has been repaired. A 200-degree
hold was placed on this CR. The “Operability Review Note” by the Watch Engineer stated “200
degree hold for loose wires, etc.” The response to the unterminated (loose) wire issue was not
addressed. The engineer who responded to the 200H action stated that he considered the
unterminated wire a housekeeping issue and therefore, did not address it as part of the 200H
response.

CR 200009499 identified additional conditions in which the wiring in the RPS racks violated
statements in the UFSAR. The CR stated that “Wires (in RPS Racks 4 and 5) were carelessly
strewn through multiple wire ways,” and “Had the original design been followed, there would
have been no mixing (of circuit functions) and there would have also been half as many new
wires to mix.” These issues were addressed in Operability Determination 00-018 which was
conducted on CR 200007597 which found that the RPS was operable.

CR 200009641 identified six issues related to RPS wiring deficiencies or discrepancies, three of
which were similar to or a repeat of issues identified in previous CRs. The new issues included
a wire associated with an NIS power range logic relay with a splice that is not represented on
plant drawings and single cable containing both 125 VDC logic protection power and 118 VAC
instrument bus power. Both of these issues were addressed in Operability Determination
00-018.

CR 200010125 identified discrepancies between design drawings and the as-built configuration
of the RPS. This CR also identified other CRs that described similar inconsistencies between
design drawings and RPS wiring. A review of the corrective action associated with these CRs
revealed that the CR actions were typically closed by revising the plant drawings to reflect the
as-found configuration without performing a safety evaluation to determine the impact of the
change on the design and licensing basis. In some cases the as-found condition affected the
system design as depicted in the UFSAR text and/or figures. This CR also identified errors
made in drawings as part of the corrective action for CR 199904968. Furthermore, this CR
identified discrepancies between drawings and the as-found RPS wiring that had not been
previously identified.

CR 200100327 summarized numerous issues identified in eight previously submitted CRs that
documented a lack of configuration control and quality control of changes to the RPS wiring
since 1998. The concerns raised in CR 200100327 were categorized as quality assurance
requirements for design verifications, wiring changes resulting from modifications that could not
be located and wiring separation not in accordance with the UFSAR. The eight CRs
summarized in CR 200100327 are CR 200010125, CR 199803574, CR 199904968,
CR 199902835, CR 199903445, CR 200007597, CR 200009499 and CR 200009641.




                                               28
                                         APPENDIX B
            Chronology of Significant Inspections and Oversight at IP2, 1995 – 20031


March 14, 1995             Inspection Report (IR) 1995-01, special safety inspection of AFW digital
                           controller failure.

April 12, 1995             IR 1994-017 service water self-assessment inspection.

August 28, 1995            IR 1995-080, Operational Safety Team Inspection.

October 26, 1995           SALP report issued.

January 28, 1997           IR 1996-080, Integrated Performance Assessment Process (IPAP).

January 31, 1997           Confirmatory Action Letter (CAL) issued.

February 21, 1997          CAL closed.

March 31, 1997             Final SALP report issued.

May 1, 1997                Plant shutdown for refueling outage.

May 9, 1997                IR 1997-003 integrated inspection.

June 19, 1997              IR 1997-005, special inspection conducted for stuck open MSSV.

June 1997                  IP2 discussed at Senior Management Meeting (SMM).

June 1997                  Regional Administrator meets with ConEd Chief Executive Officer.

July 8, 1997               Plant startup from refuel outage.

July 26, 1997              Generator load rejection and reactor trip.

July 28, 1997              Reactor trip.

August 6, 1997             Shutdown.

August 8, 1997             IR 1997-008, special inspection of outage issues.

August 23, 1997            Reactor trip due to reactor coolant pump breaker testing logic error.

August 25, 1997            Plant startup.

September 29, 1997 IR 1997-010, special inspection of load reject and reactor trip.


       1
           Information in this chronology was provided to OIG by Region I.

                                                         29
October 14, 1997     Plant shut down due to repetitive DB50 circuit breaker failures.

December 12, 1997 IR 1997-012, integrated inspection report, resident inspection and
                  specialist review of safety-related breaker problems.

January 1998         IP2 discussed at SMM.

January 1998         Performance letter issued to ConEd - decision made to perform
                     Operational Safety Team Inspection/Independent Safety Assessment.

February 13, 1998    IR 1997-013, special inspection of 480 Vac Breaker failures.

March 26, 1998       CAL 1-98-005 due to issues discovered during shut down not related to
                     circuit breakers.

March 26, 1998       IR 1998-201, design inspection.

April 27, 1998       NRC restart action plan for IP2 issued.

May 1998             Independent Safety Assessment performed by ConEd.

June 3, 1998         IR 1998-005, NRC Evaluation Team (NET).

June 26, 1998        IR 1998-006, special inspection focusing on corrective actions regarding
                     plant restart issues.

June 1998            Emergency preparedness exercise.

July 9, 1998         Revised NRC CAL 1-98-005 issued March 26, 1998.

July 1998            IP2 discussed at SMM.

September 16, 1998 IR 1998-012, followup NRC NET evaluation team inspection.

September 21, 1998 Reactor startup.

October 16, 1998     IR 1998-008, special Inspection of corrective action associated with
                     restart issue.

October 23, 1998     IR 1998-014, NRC integrated inspection.

November 3, 1998     IR 1998-016, NRC special inspection of high efficiency particulate air
                     (HEPA) filter deterioration.

January 29, 1999     IR 1998-018 NRC 40500 Corrective Action Program Inspection.

April 1999           Plant Performance Review.



                                              30
June 1999            ConEd external assessments of operations, work control, and
                     maintenance departments.

August 19, 1999      IR 1999-004 NRC team inspection report (Core Engineering Team).

August 31, 1999      Reactor trip and loss of offsite power.

September 14, 1999 Management meeting - Augmented Inspection Team (AIT) interim
                   results.

September 23, 1999 Public exit meeting - AIT exit meeting.

September 1999       Emergency preparedness exercise.

October 13, 1999     Reactor startup.

October 19, 1999     IR 1999-008, AIT.

October 1999         IR 1999-013, AIT follow up team inspection commenced.

October 1999         Mid-cycle plant performance review letter issued.

November 23, 1999    Public Meeting - IP2 performance assessment results from September
                     1999 plant performance review.

December 21, 1999 Results of the follow-up inspection to the AIT (1999-013).

December 1999        IP2 Recovery Plan actions transferred to Business Plan.

January 5, 2000      IR 1999-014. Results of enforcement follow up of AIT for August 31,
                     1999 trip.

January 7, 2000      Drafted charter for the formation of the Indian Point Unit 2 oversight panel
                     (IPOP).

February 1, 2002     Drafted IP2 oversight strategy.

February 15, 2000    Reactor trip - steam generator tube failure (SGTF).

March 1, 2000        SGTF meeting.

March 14, 2000       SGTF public meeting.

March 2000           Formation of IP2 communications team.

March 2000           Plant performance review letter.

April 28, 2000       NRC AIT SGTF IR 2000-002 issued.


                                              31
May 23, 2000         IP2 discussed at SMM; letter issued characterizing IP2 as an “Agency
                     Focus” plant.

June 25, 2000        Public meeting.

July 10, 2000        IR 2000-007, AIT SGTF follow-up.

July 27, 2000        IR 2000-010, NRC SGTF special inspection.

August 3-4, 2000     Regional Administrator site visit.

August 31, 2000      IR 2000-010, SGTF special inspection.

September 11, 2000 NRC Agency Focus Meeting. (Regional Administrator and NRR Deputy
                   Director Site Visit)

September 26, 2000 Regulatory conference on SGTF “red” finding.

September 2000       Ongoing regional management briefings on cornerstone deficiencies, and
                     plant performance issues throughout restart.

October 2, 16, 2000 Problem Identification and Resolution (PI&R) inspection.

October 5, 2000      EDO brief to discuss content of “Agency Focus” letter.

October 10, 2000     Assessment follow up (Agency Focus Update) letter.

October 11, 2000     ROP meeting held in Cortland Town Hall.

October 16, 2000     Operator requalification Inspection.

October 25, 2000     NRC - ConEd management meeting.

October 31, 2000     Significant Determination Process repanel (final determination of “red or
                     yellow” finding for SGTF issues).

November 1, 2000     IP2 SGTF Lessons Learned Task Force (LLTF) report issued.

November 6, 2000     NRC on-site restart readiness reviews.

November 8, 2000     Mid Cycle review meeting conducted.

November 14, 2000    RI review of four system readiness reviews.

November 16, 2000    Public meeting.

November 16, 2000    NRC noted that the independent 125 VDC SSFA team performed a high
                     quality review.


                                              32
November 20, 2000   Issued red finding and Notice of Violation (NOV) for the poor SG
                    inspection program that led to the SGTF.

November 27, 2000   NRC safety system readiness review inspection on the Safety Inspection
                    system.

November 29, 2000   Mid cycle performance review and inspection plan letter issued.

December 1, 2000    Region I senior management site visit to IP2.

December 4, 2000    PI&R inspection report.

December 6, 2000    EDO briefing.

December 11, 2000 Plant heat up above 200 degrees - restart inspection begun.

December 18, 2000 IR 2000-014 design issues inspection.

December 20, 2000 NRC replied to ConEd’s request for extension to respond to the red
                  finding and NOV.

December 22, 2000 NRC Region I issues NRC review efforts/status letter.

December 30, 2000 Plant restarted.

January 2, 2001     Turbine trip due to low SG level.

January 5, 2001     Regional Administrator visits Congresswoman Kelly.

February 9, 2001    95003 multiple degraded cornerstone supplemental inspection.

February 26 -
  May 4, 2001       IR 2001-005, review reactor protection system (RPS) design issues.

February 27, 2001   Chilling effect letter issues.

March 1-2, 2001     Regional Administrator site visit and public exit meeting for 95003
                    inspection.

March 9, 2001       Chairman site visit with Regional Administrator and Executive Director for
                    Operations.

April 3, 2001       Division of Reactor Safety (DRS) branch chief visit to IP2 - UFSAR
                    verification project status.

April 10, 2001      IR 2001-002, (95003 Inspection) supplemental inspection report issued.




                                               33
June 18, 2001       IR 2001-007, emergency preparedness (EP) exercise review and
                    supplemental inspection of licensee actions to address three findings in
                    the EP cornerstone area.

July 23, 2001       IR 2001-007, review of 2001 design engineering business plan and scope
                    and 50.54 (f) commitment status.

July 23, 2001       IR 2001008, review of 2001 Design Engineering Business Plan Scope
                    and 50.54(f) commitment status.

October 22, 2001    IR 2002013, NRC on-site to do initial inspection of the failure of three of
                    six crews on licensed operator (LOR) examinations and to observe facility
                    evaluate seventh crew; crew fails: four of seven = yellow finding.

November 5, 2001    IR 2001-010, review of licensee’s safety injection (SI) safety system
                    functional assessment (SSFA) and PI&R inspection.

November 27, 2001   IR 2001-011, NRC observes facility-led evaluation of an operating crew;
                    while onsite, conducts regular-hours control room (CR) observations.

December 7, 2001    IR 2001-011, NRC- led evaluation of another operating crew; while
                    onsite, conducts regular-hours CR observations.

December 16, 2001 IR 2001-011, NRC- led evaluation of 4 staff RO licenses.

January 28, 2002    IR 2001-014, review of licensee’s self assessment and Fundamentals
                    Improvement Plan (FIP), including the Design Basis Initiative (DBI).

February 7, 2002    IR 2002-007, NRC observes facility-administered evaluations (High
                    Intensity Training (HIT).

March 21, 2002      IR 2002-007, NRC observes facility-administered evaluations (HIT).

March 21, 2002      IR 2002-009, supplemental inspection to review causes and corrective
                    actions for yellow finding related to operator requalification.

June 24, 2002       IR 2002-010, augmented PI&R inspection, reviewed performance issues
                    related to the multiple degraded cornerstone designation, progress
                    implementing the FIP, and review of the degraded control room west wall
                    fire barrier.

November 4, 2002    IR 2002-007, review of reactor protection system (RPS) wiring
                    verification.

December 9, 2002    IR 2003-002, PI&R team inspection.

December 2002 -
February 2003       IR 2003-003 and IR 2003-005 (both draft), team inspections to review TI
                    2515/148 and various other security issues.

                                             34
January 27, 2003   IR 2003-004 (draft), engineering team inspection reviewed design and
                   performance capability of component cooling water and offsite power
                   supplies.




                                          35
                                     APPENDIX C
                Summary of Escalated Enforcement Action from 1995-2000


1996-01, Enforcement Action 96-089, Significance Level (SL) III
10 CFR 50.59 (SL III) and 50.72 (SL IV)

       Repair activities on central control room roof left ventilation system in unanalyzed
       condition for 2 months. Inadequate corrective actions.

1996-04, Enforcement Action 96-272, SL IV
Criterion XVI (SL IV) and Technical Specification (TS) 6.8.1. (SL IV)

       1) Failure to maintain proper configuration control over containment isolation valve,
       contrary to procedure requirements.
       2) Failure to preform required safety evaluation on procedure change.

1996-07, Enforcement Action 97-031, SL III ($50,000 civil penalty)
Criterion XVI (SL III)

       Inadequate measures were taken to assure that the cause of each condition was
       determined and corrective action taken to preclude repetition.

       1) Repeated surveillance test failures associated with the TDAFW pump’s steam
       admission valve and discharge flow control valves. Valve damage subsequently
       identified.
       2) Preconditioning of TDAFW pump by blowing down steam traps prior to testing.
       Adequate engineering review was not performed to support pump operability.
       3) Multiple surveillance test failures associated with alternate safe shutdown system
       power transfer switches for the 23 and 24 service water pumps.
       4) Untimely identification of degradation of PAB filter/fire deluge system control panel
       and associated circuits. System was incapable of performing design function. Poor
       implementation of an alarm response procedure’s required actions.

1996-08, Enforcement Action 97-113, SL III ($50,000 civil penalty)
Criterion XVI (SL III), TS 6.8.1(SL IV), TS 6.5.1.6.a. (SL IV)

       1) Failure to take adequate corrective actions following grit intrusion during the 1995
       refueling outage. Resulted in inoperability of three of the four safety-related MFRV’s and
       one low-flow bypass MFRV in January 1997.
       2) Control of SG levels not in accordance with procedure and the failure to make
       temporary procedure changes to invoke administrative allowances for situation where
       deviation is necessary.
       3) Failure to perform a required review of a vendor report that was used as the basis to
       support DG operability following the 1995 grit intrusion.




                                               36
1996-80, Enforcement Action 96-509, SL III ($50,000 civil penalty)
Appendix R (SL III)

        Fire protection features not provided to protect one train of systems - two instances.

        1) Certain normal safe shut down instrumentation and the corresponding alternate safe
        shutdown instrumentation would be subject to fire damage.
        2) Potential for hot shorts exists as a result of fire damage to cables associated with
        both the pressurizer PORV and block valves (a high/low pressure interface).

1997-03, Enforcement Action 97-191, SL III ($55,000 civil penalty)
Criterion XVI (SL III)

        Failure to promptly identify and take corrective actions. Maintenance worker drilled into
        an electrical junction box, causing fire dampers in two safety-related electrical
        distribution rooms to actuate. Some dampers did not drop and other became physically
        restrained and only partially dropped. Condition went unaddressed by plant personnel
        for two days until questioned by NRC.

1997-08, Enforcement Action 97-367, SL III ($110,000 civil penalty)
TS 6.8.1 (SL III), Criterion XVI (SL III), TS 3.1.A.4.a (SL III), TS 4.18.c (SL III),
TS 4.2.1.(SL IV) - 5 violations

        1) operation of the plant for 2.5 days outside technical specifications pressure and
        temperature curves with the OPS inoperable. Violation of TS 6.8.1.
        2) Failed to consider ambient temperature condition on the pressurizer code safety valve
        set point. Violation of TS 4.2.1 Untimely and ineffective corrective actions. Inadequate
        50.59 safety evaluation for a plant mod to remove the pressurizer block house roof.
        Inoperability of the code safety valves as prescribed by the technical specifications.
        Numerous opportunities existed for the staff to identify this issue.
        3) Ingestion of hose in 21 recirculation pump. Poor engineering resolution to degraded
        pump performance that preceded the identification of the hose in the 1997 refueling
        outage. Indications are 21 recirculation pump inoperable since 1995. Inadequate
        corrective actions.

1997-13, Enforcement Action 97-576, SL III ($55,000 civil penalty)
Criterion XVI (SL III)

        Failure to take prompt and appropriate corrective actions prior to voluntary shutdown in
        October 1997 to address the recurring DB-50 breaker failures to close on demand.

1997-15, Enforcement Action 98-028, SL IV
Criterion XVI (SL IV), TS 6.8.1 (SL IV) - 2 violations

        1) ConEd’s failure to address degraded conditions in a timely manner on the post
        accident containment venting system (PACVS) and the hydrogen recombiner system.
        2) An inadequate procedure for operation of the PACVS.



                                                  37
Office of Investigations- January 22, 1998, Enforcement Action 98–056, SL III
50.9 (SL III) - 2 Violations

      1) On August 8, 1997, the emergency battery lights in the PAB were not tested per
      procedure. However, records were created that indicated the lights were tested.
      Technicians were not in room for long enough period to adequately test lights.

      2) On August 8, 1997, surveillance test of EDG auxiliaries require double verification.
      Double verification of compressor was not performed. Records were created that
      indicate second verification was performed. Technician was not in the EDG building to
      be able to perform verification.

1998-02, Enforcement Action 98-192, SL III ($55,000 civil penalty)
Criterion XI (SL III)

      A significant number of technical surveillance testing discrepancies were identified
      through ConEd and NRC reviews. Failed to assure that all testing required to
      demonstrate that systems and components will perform satisfactorily in service, as
      specified in technical specifications, was incorporated into surveillance test procedures.

1999-014, Enforcement Action 99-319, SL II ($88,000 civil penalty)
Criterion III (2 violations), Criterion V, Criterion XVI (SL II)

      1) a. Design basis not correctly translated into specifications and procedures for mod to
      the 480 vital bus degraded voltage relays. Therefore, relays could not perform design
      basis function and correctly reset. Contributing to August 31, 1999 transfer of 480V bus
      from offsite power supply to the RDGs.
      b. Requirement for auto operation of the Station Aux Transformer Load Tap Changer
      were not translated into procedures. As a result form September 9, 1998 to August 31,
      1999, the 138kV offsite power system was unable to perform its function. Violated
      Technical specification 3.7. B.3.
      2) Procedure did not adequately ensure proper calibration of DB-75 breaker trip units for
      the EDGs. Result EDG was inoperable from May 27, 1999 through August 31, 1999.
      3) Condition adverse to quality with channel 4 of the reactor protection system (RPS)
      OTDT circuitry between January 1999 and August 31, 1999, resulting in a plant trip
      during maintenance on channel 3.

2001-010, Enforcement Action 00-179, Red Finding
Criterion XVI (Red)

      A PWSCC defect was identified, signifying the potential for other similar cracks in low-
      row tubes. ConEd did not adequately evaluate the susceptibility for low-row tubes to
      PWSCC and the extent of degradation.
      ConEd did not adequately evaluate the potential for hour-glassing based on the
      indications of the low-row tube denting. The increased stresses caused by the hour-
      glassing are a prime precursor for PWSCC.
      1997 Steam generator inspection program was not adjusted to compensate for the



                                              38
       adverse effects of increased noise in detecting flaws, particularly when condition that
       increased the susceptibility to PWSCC existed.

These problems contributed to at least four tubes with PWSCC flaws in their small radius U-
bends, being left in service following the 1997 inspection, until one tube failed on February 15,
2000.




                                                39
